September 29, 1999

CLARENCE E. LEWIS, JR
CHIEF OPERATING OFFICER AND
 EXECUTIVE VICE PRESIDENT

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SYLVESTER BLACK
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:	 Emergency and Extra Trip Expenditures on Highway Routes
          (Report Number TR-AR-99-003)

This report represents the results of our audit of emergency and extra trip expenditures
on highway routes. We found that USPS could save $24.7 million in fiscal year (FY)
2000 and avoid $26.7 million annually in subsequent years through better
administration of emergency contracts and extra trips.

Management generally agreed with the overall findings and recommendations. They
also agreed that savings could be achieved through a reduction in the number of
emergency service contracts and more efficient use of extra trips. They plan to validate
the actual savings after their July 30, 1999, instruction to convert existing emergency
contracts to regular service has been implemented. Management’s views are
highlighted in the report, and are included in their entirety in Appendix C.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Debra Ritt,
Director, Transportation at (703) 248-2198 or me at (703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment
cc: 	 Patrick R. Donahue
      William H. McComb
      Robert T. Davis
      George L. Lopez
      Craig G. Wade
      Tony Pajunas
      Dwight Young
      Alan B. Kiel
      John R. Gunnels
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes


                                  TABLE OF CONTENTS

Part I

Executive Summary                                                       i


Part II

Introduction
    Background                                                         1
    Objective, Scope, and Methodology                                  1


Audit Results

   Emergency Contracts                                                 3

      Award Criteria                                                   3

      Emergency Contract Conversion                                    5

   Recommendations                                                     7
   Management’s Comments                                               8

   Evaluation of Management’s Comments                                 9


   Extra Trips                                                       10 

      Extra Trip Rates                                               10 

      Premium Payments                                               11 

      Monitoring Extra Trip Costs                                    11 

   Recommendations                                                   12
   Management’s Comments                                             12 

   Evaluation of Management’s Comments                               13 


Appendices
  A - Computation of Estimated Savings and Cost Avoidance            14 

  B - Statistical Sampling Projections and Analysis Model            15 

  C - Management’s Comments                                          18 





                                        Restricted Information
Emergency and Extra Trip Expenditures                                            TR-AR-99-003
 On Highway Routes


                                 EXECUTIVE SUMMARY
 Introduction 	               The Office of Inspector General (OIG) conducted an audit
                              of the United States Postal Service’s (USPS) expenditures
                              for emergency contracts and extra trips on highway routes.
                              We conducted the audit in response to issues identified by
                              transportation managers at the end of fiscal year (FY) 1997.
                              USPS expenditures for emergency service and extra trips in
                              FY 1998 totaled about $310 million, or 18 percent of the
                              agency's total expenditures for highway routes.

                              The objective of the audit was to identify actions USPS can
                              take to reduce emergency service and extra trip costs. To
                              identify these actions, we determined whether USPS
                              (1) limited emergency contracts to valid emergencies,
                              (2) promptly converted emergency contracts to regular
                              service, (3) procured extra trips at the most reasonable
                              rates, and (4) adequately monitored extra trip expenditures.

 Results in Brief	            We estimate that USPS could save $24.7 million in FY
                              2000 and avoid $21.2 million annually in subsequent years
                              through better administration of emergency contracts for
                              highway routes. In addition, we estimate USPS can avoid
                              $5.5 million annually by negotiating extra trip rates that
                              exclude fixed costs paid contractors for regular service, and
                              by increasing oversight of extra trip expenditures.

                              Our audit disclosed that USPS did not limit its use of
                              emergency contracts to valid emergencies. Specifically,
                              69 percent of the emergency contracts we reviewed did not
                              comply with the emergency criteria set forth in the USPS
                              Purchasing Manual. This occurred because Headquarters
                              and area staff in Facilities and Operations did not notify
                              contracting officials of new transportation requirements in
                              time to award regular service contracts. Also,
                              inconsistencies between the Highway Contracts Support
                              System used in the contracting process and the USPS
                              Purchasing Manual may have contributed to the excessive
                              use of emergency contracts.

                              In addition, USPS did not take advantage of opportunities to
                              reduce costs by promptly converting emergency contracts
                              to less-costly regular service. Although emergency
                              conditions had ended, 61 percent of the emergency
                              contracts were extended for periods that sometimes



                                                  i
                                        Restricted Information
Emergency and Extra Trip Expenditures                                                   TR-AR-99-003
 On Highway Routes


                                     exceeded four years. Because contract rates for
                                     emergency service averaged 17 percent higher than rates
                                     for regular service, USPS incurred additional costs by not
                                     converting emergency contracts in a timely manner.

                                     Contracting officials indicated that other workload priorities
                                     often interfered with prompt conversions of emergency
                                     contracts. Headquarters officials, concerned about the
                                     workload of area contracting officials, have initiated several
                                     studies to identify ways to streamline the contracting
                                     process. In addition to workload issues, we identified
                                     several practices of area and Headquarters contracting
                                     officials that contributed to routine extensions of emergency
                                     contracts. At four of five locations we visited, contracting
                                     officials did not investigate the continued need for
                                     emergency service and routinely requested extensions from
                                     Headquarters. Headquarters approval is required for
                                     extensions, but Headquarters officials did not validate the
                                     need for the service before granting approval. Area
                                     contracting officials also extended emergency service by
                                     soliciting follow-on emergency service contracts instead of
                                     requesting an extension from Headquarters as required.
                                     This practice eliminated management oversight of
                                     emergency contract extensions--allowing emergency
                                     contracts to run longer than necessary and reducing
                                     potential savings.

                                     Regarding extra trips, our audit disclosed that contracting
                                     officials did not negotiate special rates for extra trips.
                                     Instead, they routinely used the pro rata rate--the rate for
                                     regular service--as allowed by contracting guidelines. This
                                     practice resulted in excessive expenditures because pro
                                     rata rates included fixed costs, such as insurance
                                     premiums,1 for which USPS is already paying contractors
                                     as part of regular contract service. Contracting officials
                                     indicated the frequency and urgency of extra trip requests
                                     made it impractical to negotiate special rates every time a
                                     trip was required. We agree that such changes are not
                                     practical and therefore recommended that contracts be
                                     changed to accommodate this situation. Additionally, our
                                     audit revealed that one area paid four contractors a 10
                                     cents per-mile premium above regular contract rates without
                                     adequate justification, as required by contracting guidelines.

1
    This is true when premiums are not based on miles driven.



                                                          ii
                                               Restricted Information
Emergency and Extra Trip Expenditures                                             TR-AR-99-003
 On Highway Routes


                              Premiums paid to contractors totaled about $314,000 in
                              FY 1998 alone, and in one instance had been in effect for
                              about 20 years.

                              Finally, the Distribution Networks Offices (Networks Offices)
                              in the five locations we visited were not monitoring extra trip
                              costs to identify excessive expenditures. By monitoring
                              expenditures, Networks officials could have easily identified
                              extra trip costs that were equal to or more than the cost of
                              regular service on the route. Monitoring could have also led
                              to identifying extra trips that occurred with such frequency
                              that they were "regularly scheduled trips.” Networks
                              officials were not monitoring these expenditures because
                              they lacked authority over Operations staff at facilities who
                              authorized the extra trips. Without authority to effect
                              change, Networks officials saw no value in monitoring extra
                              trip costs and had not established a process for tracking
                              these expenditures. Similarly, Headquarters had not
                              emphasized monitoring or established a benchmark for
                              Networks Offices to use in assessing the reasonableness of
                              extra trip costs.

 Summary of                   To ensure that emergency contracts are used judiciously,
 Recommendations              we recommend the Vice President, Purchasing and
                              Materials, direct contracting officials to review all existing
                              emergency contracts, and as appropriate, convert them to
                              regular service. Contracting officials should also
                              discontinue the practice of extending emergency service by
                              awarding follow-on contracts for the same service. Further,
                              we recommend that the Vice President ensure the Highway
                              Contract Support System is consistent with purchasing
                              criteria for emergency contracts, delegate authority for
                              approving emergency service extensions to local
                              contracting officials, and identify ways to streamline the
                              contracting process. In addition, we recommend that the
                              Chief Operating Officer and Executive Vice President
                              instruct Facilities and Operations managers to promptly
                              notify contracting officials of new service or changes in
                              transportation needs so that adequate time is available to
                              award regular contracts.

                              To improve oversight of extra trips and reduce
                              expenditures, we recommend the Chief Operating Officer
                              and Executive Vice President in coordination with the Vice
                              Presidents, Purchasing and Materials, and Network



                                                  iii
                                        Restricted Information
Emergency and Extra Trip Expenditures                                           TR-AR-99-003
 On Highway Routes


                              Operations Management require that extra trip rates be
                              established when regular service contracts are negotiated.
                              We also recommend they discontinue paying the 10 cents
                              per-mile premium for extra trips, establish area goals for
                              reducing extra trip expenditures, and charge Networks
                              Offices with monitoring goal achievement.

 Summary of                   Management generally agreed with our findings,
 Management’s                 conclusions, and the projected savings resulting from a
 Comments                     reduction in the number of emergency contracts and more
                              efficient use of extra trips. However, they indicated the
                              actual savings will have to be determined through careful
                              measurement of changes in the level and cost of
                              emergency service after their corrective actions. They plan
                              to assess the actual savings after their July 30, 1999,
                              instruction is fully implemented. Management also stated
                              that payments above pro rata rates do not constitute
                              premiums, and the examples cited in the report were initially
                              paid to compensate the contractors for extra equipment and
                              employees.

                              Management agreed to adopt 10 of the 12 report
                              recommendations, deferred its decision to implement one
                              recommendation, and agreed to pilot another. Specifically,
                              USPS will defer its decision to implement
                              recommendation 7 involving delegation of approval
                              authority for emergency service extensions until its July
                              1999 management instruction has been fully implemented.
                              USPS also plans to pilot recommendation 9 by establishing
                              test sites where negotiated extra trip service will become a
                              part of contract award or renewal. We have summarized
                              management's response in the report and included the full
                              text of their comments in Appendix C.

 Evaluation of                Management's comments are generally responsive to our
 Management’s                 findings and recommendations, and corrective actions
 Comments                     taken or planned will meet the intent of the
                              recommendations. Although management concurred with
                              our findings, they did not believe the rates paid above pro
                              rata were premiums. We continue to believe that the
                              payments we observed in excess of pro rata rates
                              constitute premiums because they were incentive-based
                              and not linked to additional contractor costs. Such
                              payments have also been ongoing for many years, and




                                                  iv
                                        Restricted Information
Emergency and Extra Trip Expenditures                                           TR-AR-99-003
 On Highway Routes


                              according to local management, are no longer needed to
                              ensure competitive and reliable service.

                              We agree with management's decision to defer
                              implementation of recommendation 7 until corrective
                              actions have been implemented. If fully implemented, the
                              July 30, 1999 instruction should help to significantly reduce
                              emergency contract extension requests requiring
                              Headquarters’ approval. We also agree with management's
                              plan to pilot recommendation 9, and believe that this test
                              will demonstrate that fixed costs can effectively be excluded
                              from extra trip rates.




                                                  v
                                        Restricted Information
Emergency and Extra Trip Expenditures                                             TR-AR-99-003
 On Highway Routes


                                        INTRODUCTION
 Background                   In FY 1998 USPS managed over 16,000 highway contracts
                              with trucking companies. These contracts establish
                              highway routes to provide regularly scheduled service
                              between facilities. If unforeseen transportation needs arise
                              that cannot be met by established routes or if service is
                              interrupted, USPS can contract for emergency service.
                              USPS can also authorize contractors to perform extra trips
                              on their existing routes when mail volumes exceed regularly
                              scheduled service.

                              USPS spent about $310 million in FY 1998 for emergency
                              contracts and extra trips, which represented about
                              18 percent of its total expenditures for highway routes. Of
                              this amount, $161 million was for emergency service and
                              $149 million for extra trips. FY 1998 expenditures for
                              emergency contracts and extra trips represent a 39 percent
                              increase over FY 1997 spending levels.

                              Responsibility for managing emergency service and extra
                              trips is currently divided between Purchasing and Materials
                              and Operations. Purchasing and Materials staff (or
                              contracting officials) located in 11 area Networks Offices
                              are responsible for contract administration. With respect to
                              emergency service, contracting officials award contracts,
                              determine the need for contract extensions, and convert
                              emergency service to regular contracts. They also
                              negotiate the rates paid for extra trips and are responsible
                              for ensuring that service is procured at the most reasonable
                              rates. Headquarters Purchasing and Materials staff provide
                              additional oversight of contracts through their approval of all
                              emergency contract extensions. Operations staff in the
                              Networks Offices review and validate requirements for
                              highway routes and monitor related expenditures.

 Objective, Scope, and        The objective of the audit was to identify actions USPS
 Methodology                  could take to reduce emergency service and extra trip
                              costs. To identify these actions, we determined whether
                              USPS (1) limited emergency contracts to emergencies,
                              (2) promptly converted emergency contracts to regular
                              service, (3) procured extra trips at the most reasonable
                              rates, and (4) adequately monitored extra trip expenditures.




                                                  1
                                        Restricted Information
Emergency and Extra Trip Expenditures                                                           TR-AR-99-003
 On Highway Routes


                                                                                                2
                                     To accomplish the audit objectives, we visited five of 11
                                     Networks Offices that were randomly selected for review--
                                     Allegheny, Midwest, Southeast, Southwest, and the Seattle
                                     Branch of the Western Networks Office. At these sites, we
                                     reviewed management controls over highway expenditures
                                     and interviewed responsible officials in Operations and
                                     Purchasing and Materials. We also statistically sampled
                                     347 contracts that were in effect during September 13,
                                     1997, through January 29, 1999. During our review we:

                                     •	 determined whether 105 emergency contracts met the
                                        established criteria for emergency service and if contract
                                        extensions were appropriate,
                                     •	 estimated the cost savings from converting 117
                                        emergency contracts to regular service, and
                                     •	 estimated the cost savings from excluding fixed costs
                                        from rates paid on 125 extra trip contracts.

                                     In selecting our samples, we used data from the National
                                     Transportation Management System and the Highway
                                     Contracts Support System. Although we did not perform
                                     extensive tests to confirm the reliability of the data, we
                                     found the computer-generated data to be consistent with
                                     supporting documentation in contract files. Our methods for
                                     computing cost savings are summarized in Appendix A.

                                     We expanded our audit at one area to review all premium
                                     payments made to contractors during the 18 accounting
                                     periods, beginning September 13, 1997, and ending
                                     January 29, 1999. Payments were identified by the
                                     Networks Office staff and verified against the National
                                     Transportation Management System.

                                     We conducted the audit between January and August 1999
                                     in accordance with generally accepted government auditing
                                     standards and included tests of internal controls as we
                                     considered necessary under the circumstances.




2
    The five sites we visited were comprised of four primary Networks Offices and one branch.



                                                           2
                                                Restricted Information
Emergency and Extra Trip Expenditures                                                               TR-AR-99-003
 On Highway Routes


                                           AUDIT RESULTS
    Emergency Contracts 	 We estimated that USPS could save $24.7 million in
                          FY 2000. Additionally, USPS can avoid $21.2 million
                          annually through better administration of emergency
                          contracts. Estimated cost savings are discussed in more
                          detail in Appendices A and B.3

    Award Criteria	                At the five sites we visited USPS did not limit its use of
                                   emergency contracts to valid emergencies. Specifically,
                                   69 percent4 of the contracts we reviewed did not comply
                                   with the emergency criteria established by the USPS
                                   Purchasing Manual. According to these guidelines,
                                   conditions justifying emergency contracts include:

                                   •	 catastrophic events that interrupt normal transportation
                                      operations;
                                   •	 strikes or other labor disputes that cause service
                                      interruptions;
                                   •	 suspension or termination of a contract with a mail
                                      transportation contractor;
                                   •	 discontinuance of service due to death or incompetence
                                      of a sole highway contractor; and
                                   •	 generation of mail at unanticipated locations or an
                                      unexpected increase in mail volume that exceeds the
                                      mail hauling capacity of the Postal Service or its regular
                                      contractors.

                                   Despite these guidelines, a common justification submitted
                                   for emergency contracts was new service as indicated in
                                   the following chart:




3
  As discussed in Appendix B, the cost savings reported represent point estimates. For example, based on the
results of our sample, we calculate that the actual savings in FY 2000 from converting emergency contracts can
range from $18.3 million to $30.7 million.
4
  Sixty-nine percent represents 73 of 105 contracts we sampled.



                                                         3
                                             Restricted Information
Emergency and Extra Trip Expenditures                                                    TR-AR-99-003
 On Highway Routes



                                              Reasons for Emergency Contract Award
                                                      (Sampled Contracts)

                                                                   5%

                                                                                           41%
                                        30%




                                                   10%
                                                                        14%

                                                                              New Facility
                                                                              New Business Volume
                                                                              Test-Hub and Spoke
                                                                              Valid Emergencies
                                                                              Other

                              Emergency contracts were not limited to valid emergencies
                              primarily because Headquarters and area staff in Facilities
                              and Operations did not promptly notify contracting officials
                              of new transportation requirements in time to award regular
                              service contracts. For example, contracting officials at one
                              Networks Office were asked to procure transportation
                              service for a new facility three days before the facility was
                              scheduled to open. As a result, an emergency contract was
                              the only option available to meet the transportation need.

                              We also noted that the Highway Contracts Support System
                              used in the contracting process included criteria for
                              awarding emergency contracts that was inconsistent with
                              the USPS Purchasing Manual. Specifically, this system
                              identifies new service as an acceptable reason for awarding
                              emergency contracts contrary to purchasing guidelines.
                              Further, in a February 26, 1992, decision on two bid
                              protests, USPS determined that the practice of awarding
                              emergency contracts for new service was inappropriate.

                              Due to the short response time required for emergency
                              service contracts, our audit disclosed that contractors
                              charged an average of 17 percent more for emergency
                              contracts than regular service. Based on this cost




                                                    4
                                          Restricted Information
Emergency and Extra Trip Expenditures                                            TR-AR-99-003
 On Highway Routes


                              difference, we estimate USPS can avoid $15.6 million
                              annually by limiting emergency contracts to valid
                              emergencies.

 Emergency Contract           Contracting officials did not take advantage of opportunities
 Conversion                   to reduce costs by promptly converting emergency
                              contracts to regular service. USPS Purchasing guidelines
                              stipulate that emergency contracts should be converted to
                              regular service when the emergency ends and sufficient
                              time exists to award a regular contract. Emergency
                              contracts are awarded for six months, and any extensions
                              beyond that period require Headquarters approval.

                              Our audit revealed that contracting officials did not convert
                              emergency contracts when the emergency ended, as
                              required by the guidelines. Specifically, 73 of the 105
                              contracts we reviewed were extended for periods that
                              sometimes exceeded four years. For example, one
                              Networks Office operated an emergency contract for 4-1/2
                              years, at a total cost of $7.2 million. Although contracting
                              officials acknowledged they should have converted the
                              contract, they elected not to because they viewed the
                              emergency rate as competitive. During our audit, however,
                              Networks officials solicited the route and received seven
                              bids that were $17,000 to $218,000 lower than the current
                              annual emergency rate. As a result, Networks officials
                              saved about $872,000 over the life of the new contract.

                              As further illustrated in the following chart, contracting
                              officials frequently extended emergency contracts well
                              beyond the six months stipulated by the USPS Purchasing
                              guidelines.




                                                  5
                                        Restricted Information
Emergency and Extra Trip Expenditures                                                   TR-AR-99-003
 On Highway Routes



                                                 Emergency Contract Duration
                                                    (Sampled Contracts)


                                    50

                                    40

                                    30
                        Number of
                        Contracts
                                    20

                                    10

                                     0
                                           0-6         7-12       13-18   19-24   >24
                                                              Months


                              Contracting officials at the Networks Offices acknowledged
                              that emergency contracts should have been converted
                              more timely; however, other workload priorities precluded
                              them from doing so. Concerned about the workload of
                              contracting officials, USPS recently reviewed staffing in
                              Networks Offices. A 1998 area workload and staffing study
                              reported that while contract workload had increased by
                              about 20 percent since the 1992 reorganization, staffing
                              had remained constant. Headquarters officials advised us
                              that several initiatives are underway to lessen the workload
                              of contracting officials and streamline the contracting
                              process.

                              Additionally, our audit identified several practices that
                              caused emergency contracts to be routinely extended. At
                              four of the five locations, contracting officials did not
                              investigate the continued need for emergency service and
                              routinely requested extensions from Headquarters.
                              Although Headquarters approval is required for all such
                              extensions, Headquarters officials did not validate the need
                              for the service before granting approval. In a recent
                              example, one Networks Office submitted over 100
                              emergency contracts for extension without supporting
                              documentation, which Headquarters approved three days
                              later. Headquarters officials did not always review these
                              requests, because they relied on area contracting officials



                                                   6
                                         Restricted Information
Emergency and Extra Trip Expenditures                                                           TR-AR-99-003
 On Highway Routes


                                 to validate the need for extensions prior to requesting
                                 approval.

                                 At the same four locations we noted that contracting
                                 officials also extended emergency service by awarding
                                 follow-on emergency contracts, instead of requesting an
                                 extension from Headquarters as required. For example,
                                 contracting officials in one Networks Office used follow-on
                                 emergency contracts to extend 7 of the 25 emergency
                                 contracts we reviewed. In one instance, emergency service
                                 had been operating for four years. This practice eliminates
                                 management oversight of emergency contract extensions,
                                 thereby reducing opportunities for potential cost savings.5

                                 Because contract rates for emergency service averaged
                                 17 percent higher than rates for regular service, USPS
                                 incurred additional costs by not converting emergency
                                 contracts in a timely manner. By promptly converting
                                 emergency contracts to regular service, we estimate USPS
                                 can save $24.7 million in FY 2000 and avoid $21.2 million
                                 annually in subsequent years.

                                 In a July 30, 1999, memorandum the Manager, National
                                 Mail Transportation Purchasing, directed contracting
                                 officials to convert emergency contracts after six months,
                                 discontinue changing contract numbers to extend
                                 emergency contracts, and award temporary contracts for
                                 urgent service needs. These actions are consistent with the
                                 recommendations cited below.

    Recommendations 	            We recommend the Chief Operating Officer and Executive
                                 Vice President:

                                 1. Instruct managers in Facilities and Network Operations
                                    Management to promptly notify contracting officials of
                                    new service or changes in transportation requirements
                                    so that adequate time is available to award regular
                                    contracts.




5
 The Highway Contract Support System changes emergency service contracts numbers when a solicitation for the
same service is awarded, reducing visibility of the service.



                                                      7
                                           Restricted Information
Emergency and Extra Trip Expenditures                                           TR-AR-99-003
 On Highway Routes



                              We recommend that the Vice President, Purchasing and
                              Materials, direct contracting officials in area Networks
                              Offices to:

                              2. Review all existing emergency contracts, and as
                                 appropriate, convert them to regular contracts. Also
                                 emphasize prompt conversion of emergency contracts in
                                 the future.

                              3. Discontinue the practice of extending emergency service
                                 by awarding follow-on emergency contracts for the same
                                 service.

                              4. Report progress made in responding to
                                 recommendations 1 - 3 and related cost savings
                                 achieved.

                              The Vice President, Purchasing and Materials, should also:

                              5. Monitor actions taken to ensure transportation
                                 requirements are received timely enough to limit the
                                 need to solicit emergency contracts; promptly convert
                                 emergency contracts to regular service; and to the
                                 extent possible, not award follow-on contracts to extend
                                 emergency service.

                              6. Work with Information Systems to modify the Highway
                                 Contract Support System to reflect the rationale for the
                                 emergency and when requirements are received.

                              7. Delegate authority for approving emergency contract
                                 extensions to contracting officials in the Networks
                                 Offices and require that they validate the need for
                                 extensions.

                              8. Continue to assess contracting workload issues and
                                 identify ways to streamline the contracting process.

 Management’s                 Management generally agreed with our findings,
 Comments                     recommendations, and estimated cost savings, but will
                              defer acceptance of recommendation 7 until their
                              July 30, 1999, instruction has been fully implemented. To
                              implement recommendation 1, management will issue a
                              Postal Bulletin article re-emphasizing the need to provide



                                                  8
                                        Restricted Information
Emergency and Extra Trip Expenditures                                             TR-AR-99-003
 On Highway Routes


                              timely information on transportation requirements. They
                              also indicated that the July 30, 1999, management
                              instruction outlining specific guidelines for reducing
                              emergency contracts addresses recommendations 2, 3, and
                              5. Further, because implementation of this instruction
                              should reduce emergency contract extensions, it may also
                              eliminate the need to adopt recommendation 7.
                              Accordingly, USPS will defer acceptance of this
                              recommendation until after corrective actions have been
                              implemented. Management will also provide periodic
                              updates on their progress in implementing corrective
                              actions, modify the Highway Contract Support System, and
                              continue to streamline contracting workload issues as
                              suggested by recommendations 4, 6, and 8 respectively.

                              Management agreed that there is an opportunity for
                              savings, possibly in the range outlined in the report.
                              However, they indicated the actual savings will have to be
                              determined through careful measurement of changes in the
                              level and cost of emergency service resulting from
                              corrective actions. Accordingly, they plan to assess the
                              actual savings after their July 30, 1999, instruction is fully
                              implemented.

 Evaluation of                The actions management has planned or taken are
 Management’s                 generally responsive to our findings and recommendations.
 Comments                     We continue to believe that authority to approve emergency
                              contract extensions should be delegated to the Networks
                              Offices which have the data needed to validate the
                              appropriateness of such requests. However, we accept
                              management’s decision to defer acceptance of
                              recommendation 7 after other corrective actions have been
                              implemented, and will follow-up on this action.

                              We also concur with management that actual cost savings
                              should be validated after corrective actions have been
                              implemented.




                                                  9
                                        Restricted Information
Emergency and Extra Trip Expenditures                                               TR-AR-99-003
 On Highway Routes



 EXTRA TRIPS	                 Based on a conservative estimate, our audit disclosed that
                              USPS could avoid about $5.5 million annually in extra trip
                              costs -- $5.2 million by negotiating extra trip rates and $0.03
                              million by eliminating extra trip premiums paid to contractors
                              by one Networks Office. Estimated cost savings are further
                              explained in Appendix A. Additionally, increased oversight
                              of extra trip expenditures by area Networks Offices would
                              help ensure that extra trip costs are reasonable.

 Extra Trip Rates 	           At the five locations we visited USPS did not negotiate rates
                              for extra trips on any of the contracts we reviewed.
                              Contracting guidelines specify that prior to procuring extra
                              trips, contracting officials are to negotiate the rate to be paid
                              for the additional service. If this is not possible, the policy
                              provides for contractors to be paid the pro rata rate for
                              regular service.

                              Contracting officials acknowledged they should have
                              negotiated extra trip rates. However, the frequency and
                              urgency of extra trip requests made it impractical to
                              negotiate special rates every time a trip was requested. As
                              a result, contracting officials routinely used the pro rata rate,
                              as allowed by the contracting guidelines. The current
                              practice resulted in excessive expenditures for extra trips
                              because pro rata rates included fixed costs for which USPS
                              was already paying as part of regular service. For example,
                              one Networks Office paid a contractor $25,000 in excess of
                              costs for general overhead, insurance, and federal and
                              state unemployment compensation, which did not increase
                              with the additional mileage. By negotiating extra trip rates
                              that exclude contractor fixed costs, we estimate that USPS
                              can avoid $5.2 million annually.

                              Through discussions with Headquarters Purchasing and
                              Materials staff, we learned that extra trip rates could be
                              established when regular service is negotiated, which would
                              be a more efficient alternative to negotiating rates at the
                              time trips are requested. Purchasing officials also agreed
                              that this approach would help ensure that USPS is
                              procuring extra trips at the most reasonable rates. We
                              agree that negotiating special rates every time trips are
                              requested is not practical; therefore, a negotiated price at
                              the time of contract award is more feasible.




                                                 10
                                        Restricted Information
Emergency and Extra Trip Expenditures                                                             TR-AR-99-003
 On Highway Routes


    Premium Payments              One Networks Office paid four contractors a 10 cents per
                                  mile premium to perform extra trips on 13 contracts.
                                  Contracting guidelines preclude Networks officials from
                                  paying amounts in excess of pro rata unless such costs are
                                  fully documented and supported. In our review of six of the
                                  contracts, documentation was not adequate to support
                                  payment of the higher rates.

                                  According to contracting officials, the practice of paying
                                  premiums began in Florida about 20 years ago to ensure
                                  competitive and reliable service. While this may have been
                                  necessary in the past, recent awards indicate that a
                                  competitive and reliable market now exists that will allow
                                  USPS to acquire these services without the premiums.
                                  Area contracting officials agreed that the higher rates were
                                  no longer needed and planned to discontinue this practice,
                                  which will save USPS about $314,000 annually.

    Monitoring Extra Trip	        Our audit disclosed that Operations staff in the USPS
    Costs 	                       Networks Offices in the five areas we visited were not 

                                  monitoring extra trip costs, although they were responsible 

                                  for oversight of highway route expenditures. According to 

                                  government internal control standards,6 organizations 

                                  should engage in monitoring activities to maintain effective 

                                  controls over its resources and to ensure organizational

                                  goals are achieved. Controlling costs by monitoring extra

                                  trip expenditures directly impacts USPS achievement of its 

                                  FY 1999 financial performance goals.7


                                  By monitoring extra trips, contracting officials could have
                                  easily identified expenditures that were equal to, or more
                                  than the cost of regular service on the route. For example,
                                  our audit disclosed that one Networks Office paid a
                                  contractor about $343,000, of which $279,0008 was for
                                  extra trips. Further, by monitoring expenditures, contracting
                                  officials could have identified extra trips that occurred with
                                  such frequency, they became regularly scheduled trips.

                                  Networks managers acknowledged they had responsibility
                                  for monitoring, but lacked authority over Operations staff at
                                  facilities who ordered the extra trips. Extra trips were often

6
  Standards for Internal Control in the Federal Government (GAO/AIMD-98-21.3.1., Dec. 1997). 

7
  The USPS FY 1999 Annual Performance Plan outlines goals for improving business unit financial performance and 

controlling costs.

8
  These expenses were incurred over 18 accounting periods. 




                                                      11
                                            Restricted Information
Emergency and Extra Trip Expenditures                                                                     TR-AR-99-003
 On Highway Routes


                                      necessary to meet service commitments--the operational
                                      goals of plants and delivery units--and as a result, took
                                      precedence over cost containment.

                                      Without authority to effect change, Networks managers saw
                                      no value in monitoring extra trip costs, and had not
                                      established a process for tracking these expenditures.9
                                      Similarly, Headquarters had not emphasized monitoring or
                                      established a benchmark for Networks Offices to use in
                                      assessing the reasonableness of expenditures.

                                      By not monitoring extra trip costs, USPS did not exercise
                                      proper control needed to further reduce highway
                                      expenditures. Area Networks officials indicated greater
                                      accountability could be achieved by establishing area goals
                                      for reducing extra trip expenditures. Establishing financial
                                      goals as an area initiative would also ensure a proper
                                      balance between service commitments and USPS financial
                                      performance goals.

    Recommendations                   We recommend that the Chief Operating Officer and
                                      Executive Vice President work with the Vice Presidents,
                                      Purchasing and Materials, and Network Operations
                                      Management to:

                                      9. 	 Establish extra trip rates when regular service contracts
                                           are negotiated, and ensure rates exclude fixed costs
                                           already paid contractors for regular service.

                                      10. Discontinue the practice of paying a 10 cents per mile
                                          premium for extra trips in one of the areas.

                                      11. Establish area goals for reducing extra trip
                                          expenditures and charge Networks Offices with
                                          monitoring goal achievement.

                                      12. Require that Networks Offices establish a tracking
                                          system to monitor area goals.

    Management’s 	                    Management agreed with the findings and
    Comments 	                        recommendations. With respect to recommendation 9,
                                      management plans to establish pilot sites as a test to
                                      determine whether negotiating extra trip service at contract

9
    One Networks Office had a tracking system, but was not using it to monitor extra trip expenditures.



                                                            12
                                                 Restricted Information
Emergency and Extra Trip Expenditures                                               TR-AR-99-003
 On Highway Routes


                              award results in lower rates. Management will provide
                              feedback on their progress and provide an alternate
                              solution, if necessary. Additionally, management suggests
                              that the payments to contractors above pro rata rates were
                              not premiums, but were payments to compensate the
                              suppliers for extra equipment and employees. They will
                              determine if the operating requirements still justify extra trip
                              rates above pro rata at the one location. Management also
                              agreed to establish goals for reducing extra trips and a
                              tracking system to monitor achievement of area goals.

 Evaluation of                Management’s planned actions should correct the situations
 Management’s                 noted in the audit. We agree with management's decision
 Comments                     to pilot recommendation 9, and believe that this test will
                              demonstrate fixed costs can effectively be excluded from
                              extra trip rates.

                              With respect to recommendation 10, we agree that
                              situations may arise where payments above pro rata would
                              be justified. However, we believe those occasions should
                              be rare and for a definite period of time. The examples
                              cited in the report have been ongoing for many years, and
                              according to local management, are no longer needed to
                              ensure competitive and reliable service. Therefore, these
                              payments constitute premiums because they were
                              incentive-based and not linked to additional contractor
                              costs. Management has indicated that it will review the
                              examples cited to determine if continuation of such
                              payments is still justified.




                                                 13
                                        Restricted Information
Emergency and Extra Trip Expenditures                                               TR-AR-99-003
 On Highway Routes




COMPUTATION OF ESTIMATED SAVINGS AND COST AVOIDANCE


                                               CONTRACT          SAVINGS    TOTAL
                                               VALUE ($M)        (NOTE 1)   ($M)
       FY 2000 EMERGENCY
       CONTRACT CONVERSIONS                    $145.0            17%        $24.7
       (NOTE 2)

       ANNUAL COST AVOIDANCE
       (NOTE 3)
       EMERGENCY SERVICE
       AWARD REGULAR SERVICE
       CONTRACTS INSTEAD OF                    $91.8             17%        $15.6
       EMERGENCIES
       PROMPTLY CONVERT VALID
       EMERGENCIES                             $32.9             17%        $5.6
       TOTAL                                                                $21.2

       EXTRA TRIPS
       ELIMINATE FIXED COSTS                   $113.7            4.6%       $5.2
       (NOTE 4)
       ELIMINATE 10 CENTS EXTRA                                             $.3
       TRIP PREMIUM (NOTE 5)
       TOTAL                                                                $5.5
       TOTAL ANNUAL AVOIDANCE                                               $26.7

NOTE 1. Percentages are based on a statistical projection of actual savings at the five
locations visited.

NOTE 2. FY 2000 savings are a one-time savings achieved by converting all existing
emergencies to regular service that have been in existence for 90 days or longer
(based on data as of February 1999).

NOTE 3. Annual cost avoidance assumes that levels of activity and costs remain
constant.

NOTE 4. This is a conservative estimate based on a statistical projection of excess
costs that could be avoided by eliminating certain fixed cost elements from extra trips.

NOTE 5. This is an estimated cost avoidance achieved by eliminating the 10 cents
extra trip premium paid to four contractors by one Networks Office.




                                                  14                                 Appendix A
                                        Restricted Information
Emergency and Extra Trip Expenditures                                                                     TR-AR-99-003
 On Highway Routes



  STATISTICAL SAMPLING, PROJECTIONS, AND ANALYSIS MODEL FOR AUDIT
                 OFHIGHWAY TRANSPORTATION COSTS
Purpose of the Sampling

The audit was to assess USPS emergency and extra trip expenditures and potential savings on highway
transportation contracts. In support of this objective, the audit team employed multistage variable and attribute
samples to allow statistical projection of contract management performance. The resulting projections were then
used as inputs to a cost-savings analysis model.

Definition of the Audit Universe

The audit universe consisted of 13 sites that separately manage highway transportation contracts: 11 Distribution
Networks Offices and 2 branch offices. The audit period included contracts in effect at some time within the 18
accounting periods ending 12 February 1999. Three separate contract populations were involved in the analysis. For
the current emergency service contracts, the contracts subject to selection were those contracts that were greater
than $75K. For contracts that were converted from emergency service to regular service, the contracts subject to
selection were those contracts that were greater than $25K. For contracts containing extra trip charges, the contracts
subject to selection included those contracts that were greater than or equal to $25K and for which extra trip charges
constituted at least 10% of the contract value. Data for contract selection came from the National Transportation
Management System and the Highway Contracts Support System. The audit team did not independently verify the
accuracy and completeness of the universe data.

Sample Design and Modifications

The audit used a two-stage sample design. The same first-stage selection of five highway contract management
sites was used for each of three projections. At the first stage, the sites were chosen with their probability of
selection proportional to the total number of highway contracts managed. Because the number of elements at the
primary stage determines the degrees of freedom and hence the t-value, we could not consider fewer than five sites;
audit travel considerations prevented us from including more than five. Expected variability in the data was not
known, precluding accurate estimates of sample size requirements; we agreed to take whatever precision and
confidence level was achievable from the sample results for a sample size that was largely determined by audit
resource considerations. Those considerations (primarily time) limited us to considering only 25 contracts per site for
of three contract types: converted emergency contracts; current emergency contracts; and contracts containing extra
trip charges.

We note that the Caribbean branch office was subject to selection in the first stage, but later definitions of contract
population data did not all include Caribbean information. As a result, the projections are not intended to address
contract management of the Caribbean branch.

Statistical Projections of the Sample Data

Savings Attributable to Conversion of Emergency Contracts to Regular Contracts.

Based on projection of the sample results, we are 90 percent confident that between $5.2M and $9.2M of the
emergency service contract costs subject to selection could be eliminated by conversion to regular service contracts.
For the contracts in the audit period, those values translate into savings of 12.6 percent to 21.2 percent. The
unbiased point estimate is $7.2M, or 17 percent.

The point estimate percentage is used by the audit team to calculate the overall savings from all emergency
contracts in the audit period minus those contracts that had been in effect less than 90 days as of 12 February 1999:
($145,006,960) * (. 17) = $24.7M. The team also applies the percentage savings range from the sample results to
the $145,006,960 to calculate a range of savings: from $18.3M to $30.7M.

Validity of Designation of Contract as Emergency.

Based on projection of the sample results, we are 90 percent confident that at least 210 (38 percent) of emergency
service contracts for the audit period are applied to situations that do not comply with valid emergency conditions.
The unbiased point estimate is 387 contracts, or 69 percent of the 564 contracts subject to selection.




                                                          15                                                Appendix B
                                                Restricted Information
Emergency and Extra Trip Expenditures                                                                 TR-AR-99-003
 On Highway Routes


Excess Charges for Extra Trips.

Based on projection of the sample results, we are 90 percent confident that an annual cost avoidance of at least
$3.9M is achievable (pro-rated from the audit period data by a factor of 1.4 (18 accounting periods at 28 days/period
= 504 days; 504/365=1.38)). The unbiased point estimate is $5.2M annually, or about 4.5% of extra trip charges. As
with other annual cost avoidance estimates, this dollar value assumes the number and amounts of non-valid charges
would remain the same (ceteris paribus) unless corrective action is implemented.




                                                        16                                              Appendix B
                                              Restricted Information
Emergency and Extra Trip Expenditures                                                                   TR-AR-99-003
 On Highway Routes


Calculation of Cost Savings

The point estimate values for savings attributable to conversion from emergency contracts to regular contracts and
the fraction of valid emergency contracts were combined with emergency contract duration data (for the population)
to calculate an annual cost avoidance for adherence to policy regarding use of emergency contracts. The cost
avoidance was divided into two categories, to include the effect of a 90-day "grace period" for conversion of valid
emergency contracts into regular contracts. We modeled a steady state condition to compute an expected number of
days a given contract exists in a given year, based on the 459-day average contract duration from the data. This was
an extremely simplified model, with no attempt to reflect distributions of contract duration or variations in contract
activity across the year. All months were considered equally likely to be the starting month for a contract. This steady
state model allowed mathematical inclusion of contracts carrying over from prior years as well as contracts starting
part way through the "current" year. By examining the steady state condition, we were able to see the effect of
allowing the 90-day grace period at the start of new, valid emergency contracts. The grace period multiplier derived
from the steady state model is 0.80.

The cost savings model uses as inputs the point estimates of the number of valid (177) and not valid (387) contracts
and the percent of contract value "saved" by conversion of emergency service contracts to regular service contracts
(17 percent). The audit team provided the total annualized cost for emergency contracts: $133,711,721. The portion
of that amount that could be avoided by use of regular service contracts in place of not-valid emergency contracts is
(387/(387+177))*($133,711,721)*(0.17)=$15.6M. For the 177 valid emergency contracts, the 90-day grace period
multiplier is a factor, and the cost avoidance is (177/564)* ($133,711,721) * (0.80) - (0.17) = $5.7M. Note that none of
the cost avoidance calculations address any changes in contract numbers, dollar values, validity of emergency, or
average duration of contracts; for, example, an increase in the value of emergency contracts would increase the
opportunity for cost avoidance.




                                                         17                                                Appendix B
                                               Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  18              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  19              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  20              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  21              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  22              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  23              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  24              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes




                                                  25              Appendix C
                                        Restricted Information
Emergency and Extra Trip Expenditures                            TR-AR-99-003
 On Highway Routes



 Major Contributors to
 This Report




                                                  26
                                        Restricted Information
